INDEX TO APPENDICES
APPENDIX “A................. ........
Judgment from the District Court
APPENDIX “B..........................
Opinion for the Court of Appeals

12

Case 3:18-cr-00426-B Document 268 Filed 07/31/19

Page lot 7 Page! D 593

United States District Court
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.
Case Number: 3:18-CR-00426-B(ll)
USM Number: 57654-177
Bobbie Peterson Cate

ANDRES CHAVEZ

Defendant’s Attorney

THE DEFENDANT:

□
m

□
□

pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.
Magistrate Judge, which was accepted by the
court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty_______________

Count 15 of the 16-count Indictment filed August 28,2018.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
21 U.S.C. § 841(a)(1) & (b)(1)(C) Possession with Intent to Distribute a Controlled Substance

Offense Ended

Count

03/26/2018

15

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
□
£3

The defendant has been found not guilty on count(s)
Counts 1,3, and 16 O is 0 are dismissed on the motion of the United States as to this defendant only.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

July 31.2019
Date of ImpositiofljOfJui

lent

Signature of Judgi

JANE J. BOYLE. UNITED STATES DISTRICT JUDGE
Iami

id Title of Judge

ulv 31.2019

Date

Case 3:18-cr-00426-B Document 268 Filed 07/31/19

Page 2 of 7 PageiD 594

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 7

ANDRES CHAVEZ
3:18-CR-00426-B( 11)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
240 months as to count 15.
EE]

The court makes the following recommendations to the Bureau of Prisons:
that the defendant be allowed to serve his sentence at a Bureau of Prisons facility in the Dallas-Fort Worth area. Further, the
Court recommends that the defendant be allowed to participate in the Residential Drug Abuse Treatment Program (RDAP)
while in custody of the Bureau of Prisons, if eligible.

IEI
Q

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:

□ at
O
□

□ a.m.

□

p.m.

on

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
Q
Q
Q

before 2 p.m. on
as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at -

to

with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:18-cr-00426-B Document 268 Filed 07/31/19

A0 245B (Rev, TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PagelD 595

Judgment - Page 3 of 7

ANDRES CHAVEZ
3:18-CR-00426-B( 11)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: three (3) years.

MANDATORY CONDITIONS
1.
2.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4. Q You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution, (check if applicable)
5. ^ You must cooperate in the collection of DN A as directed by the probation officer. (check if applicable)
6.

Q

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check ifapplicable)

7.

0

You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

, Case 3:18-cr-00426-B Document 268 Filed 07/31/19

-AO 245B (Rev, TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PagelD 596

Judgment -- Page 4 of 7

ANDRES CHAVEZ
3:18-CR-00426-B( 11)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are attested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts. gov.
Defendant’s Signature

Date

Case 3:18-cr-00426-B Document 268 Filed 07/31/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PagelD 597

Judgment -- Page 5 of 7

ANDRES CHAVEZ
3:18-CR-Q0426-B(1I)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office for
treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance use or abuse.
The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after completion of treatment.
The defendant shall contribute to the costs of services rendered (copayment) at a rate of at least $25 per month.
The defendant shall provide to the probation officer any requested financial information.

Case 3:18-cr-Q0426-B Document 268 Filed 07/31/19

AO 245B (Rev. TXN 2/18) Judgment m a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PagelD 598

Judgment -- Page 6 of 7

ANDRES CHAVEZ
3:18-CR-00426-B( 11)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments page.
TOTALS
0
0

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

The determination of restitution is deferred until
An Amended Judgment in a Criminal Case (A0245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

□
□
□

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule
of Payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
0 the interest requirement is waived for the
0 fine
0 restitution
□ the interest requirement for the
0 fine
0 restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A,and 113 A of Title 18 for offenses committed on or after
September 13,1994, but before April 23,1996.

A0 345B6@^SM«SSBfi%?QfiSS,flBfr,t268 Filed 07/31/19 Page 7 of 7 PagelggO „Page7of?
DEFENDANT:
CASE NUMBER:

ANDRES CHAVEZ
3:18-CR-00426-B( 11)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

□

Lump sum payments of $

□

not later than

Q

in accordance

B

Q

Payment to begin immediately (may be combined with

C

Q

Payment in equal ___________(e.g., weekly, monthly, quarterly) installments of$
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment;
or

D

Q

Payment in equal (e.g., weekly, monthly, quarterly) installments of $ ___________ over a period of
_____________ (e.g., months or years), to commence________ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or

E

0

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

F

0

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 15, which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

due immediately, balance due
, or

□

C,

□

D,

□

E> or

0

F below; or

□

C,

□

D, or

□

F below); or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

O
0
□

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
□ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (3) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Gase 3:18-cr-00426-B Document 273 Filed 08/04/19

Page 1 of 2 PagelD 629

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS

UNITED STATES OF AMERICA
vs.

§
§
§

§
ANDRES CHAVEZ

CRIMINAL NO. 3:I8CR00426(11)

§

NOTICE OF APPEAL
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW, ANDREZ CHAVEZ, the defendant in the above styled and numbered cause and
files this Notice of Appeal and shows the Court as follows:
I.
That on the 31st day of July, 2019 imposition of sentence was entered against the Defendant in the
above styled and numbered cause and tire Judgement was entered on the 1st day of August, 2019.
H.
That the Defendant hereby gives written Notice of Appeal to the Court of Appeals from said
judgment and imposition of sentence.

Respectfully submitted,
LAW OFFICES OFBOBBIEPETERSONCATE
120 South Crockett Street
Sherman, Texas 75090-5906
Telephone: (903)870-1007
Facsimile: (903) 870-1446
Bobbie.peterson@41adyjustice.com
By:

NOTICE OF APPEAL

/s/Bobbie Peterson Cate
BOBBIE PETERSON CATE
State Bar No. 02112205
Attorney for Andres Chavez, Defendant

Page I

Gase 3:18-cr-Q0426-B Document 273 Filed 08/04/19

Page 2 of 2 PagelD630

CERTIFICATE OF SERVICE
I, Bobbie Peterson Cate certify that on this the 4th day of August, 2019 a true and correct copy of
the foregoing Notice of Appeal was delivered to all interested parties via ECF electronic filing.

/s/Bobbie Peterson Cate
BOBBIE PETERSON CATE

.

wyv. —

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10881
Conference Calendar

FILED
June 2, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.

ANDRES CHAVEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CR-426-ll
Before CLEMENT, GRAVES, and OLDHAM, Circuit Judges.
PER CURIAM:*
The attorney appointed to represent Andres Chavez has moved for leave
to withdraw and has filed a brief in accordance with Anders v. California, 386
U.S. 738 (1967), and United States v. Flores, 632 F.3d 229 (5th Cir. 2011).
Chavez has filed a response. The record is not sufficiently developed to allow
us to make a fair evaluation of Chavez’s claims of ineffective assistance of

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

.

—yw. —

No. 19-10881
counsel; we therefore decline to consider the claims without prejudice to
collateral review. See United States v. Isgar, 739 F.3d 829, 841 (5th Cir. 2014).
We have reviewed counsel’s brief and the relevant portions of the record
reflected therein, as well as Chavez’s response. We concur with counsel’s
assessment that the appeals present no nonfrivolous issue for appellate review.
Accordingly, the motion for leave to withdraw is GRANTED, counsel is excused
from further responsibilities herein, and the APPEAL IS DISMISSED. See
5TH ClR. R. 42.2.

2

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 02, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-10881

USA v. Andres Chavez
USDC No. 3:18-CR-426-11

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R.s 35, 39, and 41
govern costs, rehearings, and mandates.
5TH Cir. R.s 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court' s opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5™ Cir. R. 35 for a discussion of
when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5™ Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

•

• —

Sincerely,

LYLE W. CAYCE, Clerk

By:
Laney L-. Lampard, Deputy Clerk
Enclosure(s)
Mr. Andres Chavez
Mr. Christopher Michael McCaffrey
Ms. Leigha Amy Simonton

